HHS/OIG, Audit -"Review of Medicaid Obstetrical Maternal Services Claims Billed as Family
Planning Under the New York State Medicaid Program,"(A-02-05-01001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Obstetrical Maternal Services Claims
Billed as Family Planning Under the New York State Medicaid Program," (A-02-05-01001)
July 20, 2005
Complete Text of Report is available in PDF format (410 kb). Copies can
also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit is one of a series of reports on Medicaid family planning claims made by States.  Our
objective was to determine whether the Medicaid Obstetrical Maternal Services for which New York
received Federal reimbursement at the enhanced 90-percent rate qualified as family planning services.  We
determined that the services did not qualify as family planning services.
We recommended that the State: (1) refund $1,566,740 to the Federal Government, (2) instruct Medicaid
Obstetrical Maternal Services providers not to preset the family planning indicator field to Yes in
their Medicaid claims software, (3) issue clear guidance to Medicaid Obstetrical Maternal Services
providers that any procedures provided to pregnant women may not be claimed as family planning services,
(4) strengthen Medicare Management Information System edit routines to make use of all appropriate
information on the Medicaid Obstetrical Maternal Services claims to properly identify those that are
not related to family planning, and (5) determine the amount of Federal funds improperly reimbursed
at the 90-percent rate for Medicaid payments to Medicaid Obstetrical Maternal Services providers for
non-family-planning services after our January 1, 2000, through December 31, 2003, audit period and
refund that amount to the Federal Government.  The State concurred with our first and last recommendation
and indicated it would take specific actions to address the remaining recommendations.